<html>
<title> - LEGISLATIVE HEARING ON S. 659, THE BIPARTISAN SPORTSMEN'S ACT OF 2015</title>
<body><pre>[Senate Hearing 114-24]
[From the U.S. Government Publishing Office]








                                                         S. Hrg. 114-24
 
                   LEGISLATIVE HEARING ON S. 659, THE
                   BIPARTISAN SPORTSMEN'S ACT OF 2015

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON FISHERIES, 
                           WATER AND WILDLIFE

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 17, 2015

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
  
  
  
  


         Available via the World Wide Web: http://www.fdsys.gov

                               __________
                               
                               
                          
                               
                               
                         U.S. GOVERNMENT PUBLISHING OFFICE
  94-984 PDF                      WASHINGTON : 2015             


_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
                            
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS
               

                    ONE HUNDRED FOURTEENTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
                              ----------                              

             Subcommittee on Fisheries, Water and Wildlife

                     DAN SULLIVAN, Alaska, Chairman

JOHN BASSASSO, Wyoming               SHELDON WHITEHOUSE, Rhode Island
SHELLEY MOORE CAPITO, West Virginia  THOMAS R. CARPER, Delaware
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
JEFF SESSIONS, Alabama               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
JAMES M. INHOFE, Oklahoma (ex        BARBARA BOXER, California (ex 
officio)                             officio)






                               (II)








                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 17, 2015
                           OPENING STATEMENTS

Sullivan, Hon. Dan , U.S. Senator from the State of Alaska.......     1
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     3

                               WITNESSES

Crane, Jeff, President, Congressional Sportsmen's Foundation.....     5
    Prepared statement...........................................     7
Hall, Dale, CEO, Ducks Unlimited.................................    18
    Prepared statement...........................................    20
Pacelle, Wayne, President and CEO, The Humane Society of the 
  United States..................................................    26
    Prepared statement...........................................    28
    Responses to additional questions from:
        Senator Booker...........................................    32
        Senator Sullivan.........................................    39

                          ADDITIONAL MATERIAL

Statement of David Sollman, Executive Director, Fur Industries of 
  North America..................................................   154
Letter from more than 100 national, regional, and local 
  organizations regarding the Bipartisan Sportmen's Act of 2015..   154


 LEGISLATIVE HEARING ON S. 659, THE BIPARTISAN SPORTSMEN'S ACT OF 2015

                              ----------                              


                        TUESDAY, MARCH 17, 2015

                               U.S. Senate,
         Committee on Environment and Public Works,
              Subcommittee on Fisheries, Water and Wildlife
                                                     Washington, DC
    The subcommittee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Building, Hon. Dan Sullivan (chairman 
of the subcommittee) presiding.
    Present: Senators Sullivan, Inhofe, Boozman, Fischer, 
Whitehouse, Booker, Cardin. Also present: Senator Crapo.

            OPENING STATEMENT OF HON. DAN SULLIVAN, 
             U.S. SENATOR FROM THE STATE OF ALASKA

    Senator Sullivan. Good morning and welcome to our hearing 
on S. 659, the Bipartisan Sportsmen's Act of 2015. I see a 
number of the members of the audience wearing the green of St. 
Patrick's Day. I think it is altogether fitting that we are 
discussing this bill on St. Patrick's Day. I am sure most of 
you know that St. Patrick was a sportsman, an outdoorsman, 
chased all the snakes out of Ireland.
    [Laughter.]
    Senator Sullivan. He obviously was outside doing a lot of 
work with animals.
    So it is great that we are starting this important bill on 
an important day.
    This legislation represents years of hard work by the 
sporting community. I am appreciative of the efforts that have 
gone into crafting what is a collection of bills that have 
demonstrated broad bipartisan support over the years, including 
measures that enjoy the support of the Obama administration.
    I am hopeful that in this Congress, we will be able to take 
these long efforts across the finish line. Because doing so 
means more opportunities for America's sporting community and 
importantly, more dollars for wildlife conservation.
    Specifically, S. 659 would codify an existing exemption 
that would exclude the EPA from regulating lead fishing tackle 
and ammunition, provide the States greater ability to use 
Pittman Robertson funding for shooting ranges on public lands, 
allow the Secretary of Interior to issue permits to 41 hunters, 
including two Alaskans, so that they can import their legally 
taken polar bear trophies from Canada, ensure farmers are not 
cited for illegally baiting when hunting birds from their farm 
fields, allow the possession of firearms at water resource 
development projects, reauthorize the North American Wetlands 
Conservation Act, reauthorize five multi-national species 
conservation funds and extend Pittman Robertson Wildlife 
Restoration Act interest payments.
    This morning, I know we are going to hear many positive 
things about the bill. We will also probably hear a few 
criticisms regarding the polar bear and lead ammunition 
provisions. Here are the facts, the straightforward facts on 
those provisions. This legislation simply codifies an existing 
exemption regarding the regulation of lead tackle and 
ammunition, and in no way restricts the ability of fish and 
wildlife agencies, both at the State and Federal levels, from 
restricting their usage if there is compelling scientific 
reason to do so.
    Further, there are those who may be opposed to amending the 
Marine Mammal Protection Act to allow for the importation of 41 
polar bear trophies from Canada and refer to the language as a 
loophole. But the intent of Section 4 couldn't be clearer: to 
allow only those hunters with a legally taken polar bear trophy 
prior to the 2008 ESA listing to bring those trophies into the 
U.S. This section reflects drafting changes requested by the 
Fish and Wildlife Service and has the support of the Obama 
administration.
    I hope we won't let these few differences detract from the 
bipartisan nature of this legislation, which represents the 
furtherance of the American system of conservation funding, 
which has funded fish and wildlife conservation for the past 76 
years. Hunting and fishing licenses purchased, along with the 
excise taxes on the equipment sportsmen buy pay for State fish 
and wildlife management efforts that benefit both game and non-
game species and continue to enhance our Nation's sporting 
heritage. But there is no denying that the greatest source of 
conservation funding comes from the sporting community itself.
    Finally, this bill includes important conservation 
reauthorizations, like the North American Wetlands Conservation 
Act, Multinational Species Conservation Act, which provide 
matching grants to organizations, governments and land owners 
for projects. Both projects leverage non-Federal dollars at a 
ratio that far exceeds a one to one match.
    With our Federal deficit now over $18 trillion, our Federal 
debt, it is important that we adequately justify why Congress 
should continue to appropriate a small but symbolically 
important amount of taxpayer money to these programs. I hope 
our witnesses today will help us tell that story.
    Thank you again for being here. I look forward to hearing 
the testimony of our witnesses.
    I now recognize Ranking Member Whitehouse for 5 minutes to 
deliver any opening statement he may have.
    [The prepared statement of Senator Sullivan follows:]

             Statement of Hon. Dan Sullivan, U.S. Senator 
                        from the State of Alaska

    Good morning and thank you for being here to discuss 
legislation I sponsored, S. 659, the Bipartisan Sportsmen's Act 
of 2015.
    This legislation represents years of hard work by the 
sporting community, and I am appreciative of the efforts that 
have gone into crafting what is a collection of bills that have 
demonstrated broad-based bipartisan support, including some 
that enjoy the support of the Obama administration.
    I am hopeful that in this Congress, we will be able to take 
this effort across the finish line, because doing so means more 
opportunities for America's sporting community and more dollars 
for wildlife conservation.
    Specifically, S. 659, would:

     Codify an existing exemption that would exclude the EPA 
from regulating lead fishing tackle and ammunition;
     Provide the states greater ability to use Pittman 
Robertson funding for shooting ranges on public lands;
     Allow the Secretary of the Interior to issue permits to 
41 hunters, including two Alaskans, so that they can import 
their legally taken polar bear trophies from Canada;
     Ensure farmers are not cited for illegal baiting when 
hunting birds from their farm fields;
     Allow the lawful possession of firearms at water resource 
development projects;
     Reauthorize the North American Wetlands Conservation Act;
     Reauthorize the five Multinational Species Conservation 
Funds; and
     Extend Pittman-Robertson Wildlife Restoration Act 
Interest Payments

    This morning, I know we're going to hear criticisms 
regarding the polar bear and lead ammunition provisions. 
However, the facts are simple.
    This legislation simply codifies an existing exemption 
regarding the regulation of lead tackle and ammunition, and in 
no way restricts the ability fish and wildlife agencies, both 
on the State and Federal level, from restricting their usage if 
there is compelling scientific reasons to do so.
    Further, there are detractors here today who are opposed to 
allowing for the importation of 41 polar bear trophies from 
Canada and refer to the language as a ``loophole.'' But, the 
intent of Section 4 couldn't be clearer--to allow only those 41 
hunters with a legally taken polar bear trophy, taken prior to 
the 2008 ESA listing, to bring those trophies into the U.S. 
This section reflects drafting changes requested by the Fish 
and Wildlife Service, and the Administration now supports this 
portion of the bill.
    Those who legally hunted and harvested these polar bears 
fully complied with all U.S. and Canadian laws in place at the 
time. In many instances, these hunts were planned for years as 
savings were set-aside to book a once in a lifetime experience.
    Most importantly, I want to stress that the prohibition on 
bringing these trophies into the U.S. is not providing any 
conservation value to polar bear populations. In fact, if we 
allow these trophies to be imported, we can raise much needed 
funds for conservation activities for the polar bear 
population.
    I hope we won't let these few differences detract from the 
bipartisan nature of this legislation, which represents the 
furtherance of the American System of Conservation Funding, 
which has funded fish and wildlife conservation for the past 76 
years. The hunting and fishing licenses purchased by sportsmen, 
coupled with excise taxes on the equipment sportsmen buy, fund 
State efforts to manage fish and wildlife that benefit an array 
of species, and continue to enhance our nation's sporting 
heritage. There are always going to be those who don't think we 
should kill animals. But, there is no denying that the greatest 
source of conservation funding comes from the sporting 
community themselves.
    Finally, this bill includes important conservation 
reauthorizations like the North American Wetlands Conservation 
Act and Multinational Species Conservation Funds, which provide 
matching grants to organizations, governments, and landowners 
for projects. Both programs leverage non-Federal dollars at a 
ratio that far exceeds a 1-1 match. With our Federal deficit 
now over $18 trillion, it's important that we adequately 
justify why Congress should continue to appropriate a small, 
but symbolically important, amount of taxpayer money to these 
programs. I hope our witnesses today will help us tell that 
story.
    Thank you again for being here this morning and I look 
forward to hearing the testimony of our witnesses.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Chairman Sullivan.
    I think what I would like to do is ask that my opening 
statement be entered into the record, without objection, 
because I want to make a rather different point. This has 
always been a strongly bipartisan bill. There has been a lot of 
support for it. I voted for it, I think every time it has come 
up.
    I am even OK with the polar bear business, even though I 
think it is probably the larges amount of congressional 
intention ever devoted to the smallest issue in the history of 
Congress. But never mind, if it is important enough to a few 
polar bear owners to bring them in and all of Congress wants to 
respond to that, that is, I guess, our business to do.
    But what I see over and over again is bills that come to 
the floor or bills that come to the committee that should be 
bipartisan, that could be non-controversial that have a 
stowaway loaded into them that causes partisan problems that 
are unnecessary. We are dealing right now on the floor with a 
human trafficking bill which has been jammed up because an 
abortion-related stowaway provision was stuffed into it at the 
committee level without notice to the other side.
    OK, now we are where we are. This bill has a new section 
that wasn't in, I don't think I have ever seen it before in the 
earlier versions of the Sportsmen's Act, which is this Section 
6, giving people the right to run around water resources 
development projects with loaded firearms. Well, this isn't 
like being out in a park with a firearm. This is dams. This is 
hydroelectric power houses. This is navigation locks. This is 
river systems and levees, flood risk management infrastructure. 
These are things that are within our national security 
infrastructure.
    And at the moment, Army Corps Rangers have responsibility 
for many of these areas, and they are not trained or equipped 
to be law enforcement officers. They don't have authority to 
carry firearms themselves, they can't make arrests, they can't 
execute search warrants. And now they are going to have to make 
decisions about whether somebody running around in national 
security infrastructure with a loaded weapon is doing so as a 
demonstration of their Second Amendment rights or has a worse 
intention.
    I don't think that makes any sense. You may want that in 
Alaska, but in places like Rhode Island, that kind of behavior 
would be intensely alarming and frightening to other people and 
would be very, very unwelcome. I think this is a completely 
unnecessary addition to the bill. I would like to support it 
but I think that the best way to go forward is to let the bill 
go forward in the way that it has customarily gone forward, 
with bipartisan support, rather than put a stowaway provision 
that puts at risk national security infrastructure and puts in 
peril the folks who have security authority over these areas, 
and is completely inconsistent with at least the way a lot of 
Americans live. We simply don't expect to see armed people 
running around what could very well be national security 
facilities when they have a security component there. To put 
enforcement people at the risk of figuring out who is there 
with a good or bad motive when they are running around with a 
loaded firearm I think is a mistake.
    So I hope that the majority will reconsider putting such a 
contentious, unnecessary, potentially unsafe provision in this 
bill, when they enjoy a bill that is already very strongly 
supported by both sides. It doesn't seem necessary to put that 
stick in the public's eye.
    With that, I will yield to the hearing.
    Senator Sullivan. Thank you.
    I want to welcome our witnesses, Jeff Crane, President of 
the congressional Sportsmen's Foundation. Mr. Dale Hall, the 
CEO of Ducks Unlimited, and Mr. Wayne Pacelle, President and 
CEO of The Humane Society of the United States.
    The witnesses have 5 minutes to deliver an oral statement, 
and a longer written statement, of course, will be included in 
the record.
    I also want to, before we begin with the witnesses, ask 
unanimous consent that Senator Crapo will be allowed to sit on 
the dais and participate in this subcommittee hearing. Hearing 
no objection, so ordered.
    Senator Whitehouse. With absolutely no objection.
    Senator Sullivan. Mr. Crane, sir, you have 5 minutes for 
your opening statement.

 STATEMENT OF JEFF CRANE, PRESIDENT, CONGRESSIONAL SPORTSMEN'S 
                           FOUNDATION

    Mr. Crane. Thank you, Mr. Chairman, Senator Whitehouse, 
members of the committee. My name is Jeff Crane. I have had the 
privilege for the past decade of serving as the President of 
the congressional Sportsmen's Foundation. Established in 1989, 
CSF works with the largest, most active bipartisan caucus on 
Capitol Hill, the congressional Sportsmen's Caucus. With nearly 
300 members in the House and the Senate, a number of you are 
here today, our past chairman in the caucus, Senator Crapo, is 
with us here today, I think that we work in the most bipartisan 
manner possible here in Washington.
    I am here in support of S. 405, which is the expanded 
Bipartisan Sportsmen's Act that includes provisions contained 
in S. 659, which we also support.
    I would like to point out, as you did, that this bill, S. 
405, has 18 bipartisan co-sponsors, evenly divided between 
Republicans and Democrats, which again is a rarity these days 
in this town. A very similar bill had 46 bipartisan co-sponsors 
in the Senate last year, but failed to pass. So in borrowing 
some of my lexicon from the sportsman's world, where patience 
and persistence yields to success in the field, I am hoping 
this will be our year.
    As you pointed out, Mr. Chairman, the Obama administration 
specifically supported three of the provisions that are in S. 
659. In their Statement of the Administration Position dated 
February 3d, 2014, it stated ``The Administration supports 
Title 2, which is Section 3 of S. 659, which amends funding 
requirements under the current law for target range 
construction and maintenance, thus reducing the financial 
burden on State and local governments for public target 
ranges.''
    Continuing on, ``The Administration also supports Title 4, 
which is Section 4 of S. 659, which allows the importation of 
certain polar bear trophies taken in sport hunts in Canada.'' 
Finally, the Administration staff says ``The Administration has 
no objection to Title 1, which is Section 2 of S. 659, which 
includes certain sport fishing equipment, from the 
classification of toxic substances.''
    With all of this broad support, Mr. Chairman, I believe is 
time to pass the Bipartisan Sportsmen's Act of 2015. As a life-
long conservationist and outdoorsman, I learned to hunt and 
fish from my father and grandfather, and I am passing these 
traditions on to my three daughters. In my home, we eat doves, 
deer, waterfowl, wild turkey and small game taken from the 
iconic eastern shore of Maryland. In the summer time, we catch 
crabs and fish for rockfish, which the rest of you might know 
as striped bass, from the Chesapeake Bay.
    So the pursuit of game and fish is a way of life for me. 
This bill is very important to me personally. But I think more 
importantly, it is important to the nearly 40 million Americans 
who hunt and fish and spend $90 million in support of this 
economy, oftentimes in rural parts of this Country.
    Conservation started with hunters and anglers. I draw a 
very great quote from Gifford Pinchot, who was the first chief 
of the Forest Service, who defined conservation as the wise use 
of the earth and its resources for the lasting good of mankind. 
With this comes a responsibility for stewardship. I think again 
that the sportsmen's community has always taken a leadership 
role in that.
    As part of this, I would like to submit, which is part of 
my written testimony, a letter from nearly 50 of the leading 
hunting conservation and fishing conservation groups in 
America, asking for support and passage of S. 405.
    Senator Sullivan. Without objection.
    Mr. Crane. Thank you.
    SO quite simply, in my final minutes, the overarching 
purpose behind this bill is to provide clarity where it doesn't 
exist and ensure access and opportunity for hunters, shooters 
and anglers. With an ever-increasing population, urbanization 
and suburban sprawl into areas that we traditionally hunt and 
fish, it is ever more important. With young people that spend 
more time on the couch and behind computers, we need to get 
them outside. Hunting and fishing are great opportunities to do 
just this.
    So where this does exist, we are looking for guarantees 
that it will continue to exist in the future. Where it doesn't, 
we are looking for your help to try and rectify that. That is 
all this bill does today.
    I thank you for providing me the opportunity and I will be 
happy to answer any questions. Thank you.
    [The prepared statement of Mr. Crane follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    
    Senator Sullivan. Great. Thank you, Mr. Crane, for your 
outstanding statement.
    Mr. Hall, you are recognized now for 5 minutes. Thank you 
for being here.

          STATEMENT OF DALE HALL, CEO, DUCKS UNLIMITED

    Mr. Hall. Good morning, Mr. Chairman, members of the 
committee. It is a pleasure to be here with you.
    My name is Dale Hall. I am the CEO of Ducks Unlimited. I 
spent 31 years with the U.S. Fish and Wildlife Service. With 
the grace of this committee, headed by my good friend, Senator 
Inhofe, I was able to be the Director of the Fish and Wildlife 
Service from 2005 to 2009. So it is a pleasure to be back here 
in front of you.
    I appreciate the opportunity to testify in behalf of Ducks 
Unlimited, fully supporting the Sportsmen's Act, including the 
reauthorization of the North American Wetlands Conservation 
Act, known as NAWCA, and the reauthorization of the interest 
from the Pittman-Robertson to fund NAWCA, as well. As has been 
stated, Pittman-Robertson was passed in 1937 at the request of 
hunters and shooters to be taxed so that money would go into 
the treasury and support the State game and fish agencies in 
their management of the resources within the State. Interest 
gained from that fund has been agreed to by all of the States 
to go into the NAWCA fund to be used as part of the grant 
program. It has been very successful and we fully support that. 
We are here also to talk about other provisions, such as the 
baiting issue and different aspects of this bill that we fully 
support clarity on.
    These programs are all the way government can and should 
work. The partnership with the public, partnership with our 
friends out there, these programs represent good governance and 
we support them.
    With more than a million supporters at Ducks Unlimited, we 
have a significant conservation voice for migratory birds and 
other habitats that live in wetlands that we helped create 
across the continent with our friends. Our work is always, I 
repeat always, scientifically based. We like to say that the 
motion and passion brings us to do what we do, but science and 
facts drive our decisions. I believe this bill is based on 
science and fact, and I think that is the way we ought to be 
looking at things, and good governance comes from that.
    Since enactment, NAWCA has accomplished measurable success 
in all 50 States. This program has conserved more than 27 and a 
half million acres across North America. Reauthorization of 
NAWCA is critical to build on this success and ensure the 
health of high quality wetlands in the United States.
    Despite those successes, wetlands here in the U.S. are 
disappearing. The lower 48 States of the U.S. have lost 
approximately 53 percent of our original wetlands. The most 
recent nationwide study documented that wetland loss had 
dramatically accelerated to 140 percent since 2004.
    Wildlife-related recreation generates, as has been said, 
nearly $100 billion a year in economics for this Country. It is 
more than just the right thing to do; it is the right economic 
thing to do.
    Another part of this is the use of those interest funds to 
help with NAWCA projects. At a maximum level, they have 
contributed between $15 million and $16 million in a given year 
to help go out and put wetlands and other habitat on the 
ground. And as I said earlier, all of the States have agreed 
that this is a good use for the interest on funds that were 
originally directed to go to them.
    Finally, the migratory game birds baiting issue, as 
Director of the Fish and Wildlife Service in a past life, one 
of the things that always concerned me was if a regulation is 
so confusing that the public doesn't understand it, then we are 
missing the mark. And the ultimate objective of law enforcement 
is to have the public voluntarily comply and carry out the law. 
If they don't understand it, it is going to be very difficult 
to do.
    Today, many landowners have to simply call the game warden 
and say, will you come by and tell me if we are legal. If it is 
that hard to understand, then there needs to be clarity. We 
believe that this last aspect here in helping to understand 
what normal agricultural practices are, and including the State 
agencies as well as the Fish and Wildlife Service in that, is 
simply the right thing to do.
    Mr. Chairman, thank you again for allowing us to testify in 
full support of this bill. We look forward to answering any 
questions that you may have.
    [The prepared statement of Mr. Hall follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Senator Sullivan. Great. Thank you, Mr. Hall. I couldn't 
agree more with your statement on the need for clarifying 
regulations.
    Mr. Pacelle, you have 5 minutes for your opening statement. 
Thank you for being here.

   STATEMENT OF WAYNE PACELLE, PRESIDENT AND CEO, THE HUMANE 
                  SOCIETY OF THE UNITED STATES

    Mr. Pacelle. Thank you very much. Thanks for the 
invitation, I really appreciate it.
    I am Wayne Pacelle, with The Humane Society of the United 
States. I hate to be a skunk at the party here. I do have a few 
concerns about this issue, and again, I really appreciate your 
allowing us to offer our perspective.
    I want to say at the start that we are not opposed to 
hunting. We are not seeking to ban deer hunting or duck hunting 
or other very common forms of hunting. We have been critics of 
captive hunting. We have been critics of bear baiting, a 
practice that we think is reckless and unsporting.
    So when we bring our concerns here today, we do so because 
we are zeroing in on particular concerns that are within this 
bill, not because of a general opposition to hunting.
    We are glad, of course, that the lead ammunition provision 
applies more to EPA and not to Interior. Mr. Chairman, you 
mentioned that the Feds and the States would still have the 
authority to restrict that. We think that is appropriate and 
important.
    We are just not quite sure why we are even discussing the 
EPA piece. We don't think the EPA is working on this issue. It 
is not moving on the issue. And I guess we are concerned about 
the precedent being established of the Congress telling a 
Federal agency that clearly does have some germane experience 
that it can't take action on an issue if the science compels an 
examination.
    So again, we are critics of the use of lead ammunition. 
Just like we have seen in society, we don't have lead in 
gasoline, we don't have lead in paint. The world is moving away 
from lead ammunition. We are moving to non-toxic forms of shot 
that essentially don't see bullets and ammunition continuing to 
kill long after they have left the chamber.
    So I say that just as a general concern. I am not quite 
sure why we are focused here on EPA on this issue.
    On the polar bear piece, I know, Senator Crapo, you have 
been concerned about this. And we are glad this doesn't involve 
why are polar bears being shot, and then being brought in. 
These animals are dead. We recognize that. They cannot be 
brought back to life. If it were just that issue, I don't think 
I would be here expressing concern. I think again, our concern 
really relates to the precedent. What happened with the polar 
bear issue is that the Fish and Wildlife Service gave 
appropriate notice to the sport hunting community that a 
listing for polar bears was coming. Many hunting groups told 
hunters, listen, if you go up and do this and you don't bring 
the trophies back by a date certain, you are unlikely to get 
these animals' carcasses and the trophies back into the U.S.
    These guys went up there anyway and shot the polar bears. 
Now we view it as a pleading to Congress to get these trophies 
back in.
    Now, what happens when the Fish and Wildlife Service says, 
OK, we are going to list the African lion as threatened or 
endangered and we are going to restrict trophies? Are we going 
to see a mad runs of people going to kill these rare animals 
and then coming back to the Congress to override an executive 
agency decision to grant these import permits? If it were just 
polar bears and this class of 41 folks, while we don't like 
what they did, we think it is wrong what they did, we wouldn't 
be here objecting. I think we are deeply concerned about the 
precedent.
    The larger issue of this bill, I think the biggest 
practical concern that we have is, you are talking about the 
Forest Service, principally, and you are talking about the BLM. 
The Federal Government cedes authority for wildlife management 
to the States in all of those jurisdictions on hunting seasons 
and the like. Ninety-nine percent of these lands are already 
open to hunting. We are not quite sure what is being 
accomplished by having this open and less closed provision. 
Except, and when we get a little bit paranoid on this is the 
issue of traffic.
    There has been a lot of concern expressed by humane 
organizations about inhumane and indiscriminate forms of body-
gripping traps, steel jaw leg hold traps, snares and the like. 
This language, not before your committee today, but the other 
portion of this larger bill that was before Energy and Natural 
Resources, essentially equates trapping with these other forms 
of wildlife taking, hunting and fishing. We think this could be 
also a very dangerous provision to enable trapping activities 
in wilderness areas and other areas where there is an 
appropriate reason for the restriction.
    If you have a firearm and you are shooting an animal, you 
are zeroing on the target. If you leave a trap in the woods, 
any animal can be victimized by that trap. We have likened them 
to land mines for wildlife. And there may be very compelling 
and appropriate reasons to restrict them, what we are doing is 
we are eliminating the discretion of local land managers with 
the Federal Government when the history of these particular 
agencies' involvement in hunting and fishing and trapping 
issues is to be entirely permissive.
    So again, I think our criticisms, just to wrap up, really 
are zeroing in on, why are we doing these things? The lands are 
already open to hunting. And for the polar bears, let's not 
send a signal to the trophy-hunting community that if there is 
an endangered species listing looming, you guys go ahead and 
then the Congress can bail you out and you can bring your 
trophies back into the United States.
    Thank you again for giving me the opportunity to testify. 
Much appreciated.
    [The prepared statement of Mr. Pacelle follows:]
   
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Senator Sullivan. Thank you, gentlemen. Thank you for your 
testimony. I now recognize myself for 6 minutes for questions.
    Mr. Crane, in your written testimony you discuss the nearly 
$7 billion in excise tax payments since the Pittman-Robertson 
program began. This is obviously a significant amount of money 
that goes directly to States to run their fish and game 
departments and to implement local conservation programs. In 
fact, some have suggested that this money had a direct impact 
on the recovery of populations such as the white-tailed deer, 
black bear and the American elk.
    IF we do not clarify the law by enacting Section 2 of this 
legislation, what effect will that have on the conservation 
dollars paid under the Pittman-Robertson account and how will 
that affect overall State conservation programs?
    Mr. Crane. Mr. Chairman, we are very proud of this uniquely 
American system. As you pointed out, it is a system of those of 
us who hunt and fish, the industries that manufacture this pay 
the taxes and everyone else benefits from it. Seven billion 
dollars is a lot of money even in this town. So we are very 
proud of the accomplishments that this system has.
    By unnecessarily putting an agency that doesn't have the 
authority, doesn't have the ability, has declined to take these 
petitions in the past, and run that risk that somebody will 
petition this in the future and basically break this financial 
model, I think we are going to do a tremendous disservice to 
conservation in America.
    I would encourage this committee to leave this provision 
intact. I think that these issues are much better handled by 
the State wildlife agencies and those professionals that can 
deal with them when they rarely occur on a much more localized 
basis.
    Senator Sullivan. So the Section 2 provisions, you are 
supportive of?
    Mr. Crane. Yes, sir.
    Senator Sullivan. Great. Let me continue with you, Mr. 
Crane. If a situation occurs where sound science irrefutably 
identifies a population impact from lead-based ammunition, as 
was the case with waterfowl, do you think that the government 
has a role to play in responding? And if so, what would be that 
kind of role?
    Mr. Crane. I absolutely do. Again, I think the right 
agencies to handle that are the State wildlife management 
authorities and the U.S. Fish and Wildlife Service. Where these 
happen, they have the tools in their toolkit to be able to 
handle things like season length, like areas that they may have 
to temporarily close and other ways to address this.
    There are no population-wide issues with lead contamination 
on any species in the United States, save maybe the California 
Condor, and that has a very long, long history and would take 
up to much time talking about it.
    Senator Sullivan. How about you, Mr. Hall, on that issue? I 
know you must have experience from your previous directorship 
at Fish and Wildlife.
    Mr. Hall. I agree with that. I think if it is endemic, if 
it is all over the United States, and across the State 
boundaries, and we have an issue like we did with lead shot for 
waterfowl hunting, then there is a very appropriate role for 
the Federal agency to play. That has not come to bear in any 
science that I have seen dealing with lead since we shut down 
the use of lead shot for water fowling.
    Therefore, I agree completely that a proper place to do 
that is where it is locally found. Condor might be an example 
in California, Arizona. Let the State agencies address it. That 
is the proper role of the State agencies. I would agree with 
that.
    And if I might, I want to correct just a procedural point 
that Mr. Pacelle made. That is that we can't compare apples and 
oranges when we are talking bears and lions. Under the polar 
bear, it is a United States species. Therefore, it is protected 
in Alaska and other places. It is one of our species.
    So when it was listed as threatened, it was listened as a 
domestic species, listed. If a lion were listed or some species 
that is not domestic to the United States, then it would go on 
the international list of threatened and endangered species. 
And the U.S. Fish and Wildlife Service, particularly, would 
defer to the origin country from where the animal was coming on 
what rules they wanted us to implement. If they had permits 
from there, we would be able to let them come in.
    Thank you for allowing me to clarify the procedure there.
    Senator Sullivan. Sure. Let me ask a followup question with 
you. You talked about NAWCA and I mentioned in my opening 
statement about the private matching money that far exceeds the 
Federal investment. Help us explain, help some of my 
constituents to understand, if this is the case, why not shift 
all the funding to the private sector? What happens if there is 
no Federal investment? What should the responsibility of the 
U.S. taxpayer be in this regard, particularly, as I mentioned, 
in a time of very austere Federal budgets?
    Mr. Hall. Thank you for that question. It is a legitimate 
question that the citizens need to really understand. When we 
look at the North American model of wildlife management and 
conservation that Jeff referred to a few minutes ago, that is a 
partnership. It goes back to Aldo Leopold's concept of the 
citizen conservationist. That is why we in the private sector 
are so willing to stand up and put money into the system.
    But that needs to have the partnership of the Federal 
Government relaying that this is a United States value. Our 
natural resources are something important to us as a Country, 
us as a people. And by this small token, really one quarter 
under NAWCA is what is spent by the Federal taxpayer. They get 
$4 back for $1 expended.
    As we look at good governance, as we look at efficient 
governance, I can't think of a program that ever exemplifies 
the Federal taxpayer getting more back for the resource they 
own by Constitution and the management of those resources than 
something that gives them back a $4 payoff for $1 investment.
    Senator Sullivan. Great. Thank you for that.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Before you start the clock, let me tell you how I am going 
to manage my 6 minutes. I do have two brief questions to ask, 
one of Mr. Crane and one of my good friend, Dale Hall. But then 
I have a longer question to ask our friend, Mr. Pacelle. So 
when I ask this question, I am going to ask you to be brief, if 
you don't mind.
    First of all, Mr. Crane, I have to say this. In your 
opening statement, you talk about coming from a hunting family. 
Back when I enjoyed life, I never missed a day of goose season 
in Oklahoma. People don't realize we have one of the big 
flyways through there. In fact, I had the first 10-gauge full 
choke 36-inch double barrel shotgun. And people wondered how in 
the world I was getting them out further than anybody else.
    But anyway, that is not my question. The question is, you 
heard the statement that Mr. Pacelle said about lead 
ammunition. What effect would it have if you left EPA in that 
regulatory position, for lead ammunition?
    Mr. Crane. Again, Senator, a couple of points. First of 
all, I want to clarify that there are not readily available, 
widely available alternatives to lead. Ninety-five percent of 
current ammunition is lead or copper based.
    Second, the price of that is probably four times or more 
should it be available. So while that may not be important to 
everyone in this room, for our rural folks back in Oklahoma, if 
their box of shotgun shells goes from $25 to $125, and they are 
trying to feed their families, I think that makes an impact.
    And third, and finally, as was asked by the chairman, there 
is $7 billion that has gone off the Pittman-Robertson excise 
tax to support conservation. You apply the same thing to the 
fishing side of the equation, then the alternatives to that are 
anywhere from 10 to 20 times more expensive. They don't work as 
well.
    So we have a serious problem here. Let's leave it to the 
State fish and wildlife agencies.
    Senator Inhofe. Thank you. You gave the same answer my son 
gave me.
    Mr. Hall, I look back wistfully at the days when you were 
at the helm. Your partnership program just was a booming 
success. It takes away this image that anything, that the 
government is there saying, we are doing it because the people 
don't want to take care of their own property. You did such a 
great job.
    The question I have to ask you is, both NAWCA and the 
Pittman-Robertson need to be reauthorized in this bill. Can you 
real briefly explain the difference between the two and why 
they are both important?
    Mr. Hall. Yes, sir, thank you. The North American Wetland 
Conservation Act was passed as the implementing tool for the 
North American Waterfowl Management Plan that was put together 
back in the 1980's. It is a standalone program to try and help 
restore and protect wetlands and grasslands and other waterfowl 
habitat in order to follow the North American Waterfowl 
Management Plan.
    The Pittman-Robertson excise taxes go into separate grants 
to the States in order for them to help carry out their 
operations. This provision here simply for the interest that is 
gathered on those funds that are collected each year, and that 
interest has been designated to go into NAWCA so that it can go 
into making grants as well for wetlands and waterfowl and other 
habitat.
    Senator Inhofe. I see. That is very interesting.
    Mr. Pacelle, I have to say that I have had to change my 
mind twice since I saw you were going to be one of the 
witnesses. I always thought of your group as being 
philosophically very liberal and on liberal causes and all 
that. Until I saw the ad shortly after our disaster, the 
tornado in Moore, Oklahoma, you had an ad, I think it is still 
running, and it shows the dogs out there, the pitiful dogs, 
that hit me hard. Because that is one of the things I do, is 
help with abandoned dogs and that type of thing.
    So I was changing my feelings a little bit until I realized 
that our Attorney General, Scott Pruitt, has a lawsuit against 
you based on the fact that in the programs we have had, you 
have actually extracted, as a result, probably of that ad, I 
almost contributed myself, some $1.7 million from Oklahomans. 
And in the same timeframe that money came in, only $110,000 was 
donated to animal shelters and other institutions in my State 
of Oklahoma.
    So Oklahomans paid you $1.7 million and got back $110,000. 
Is that true?
    Mr. Pacelle. No, it is not true. I guess if that was a 
concern of yours, I am glad you have raised it in public, so 
that I can have an opportunity to address it.
    Senator Inhofe. Stop there for a moment. Since you said it 
wasn't true, your general counsel, is it Roger Kindler?
    Mr. Pacelle. Yes, he is general counsel.
    Senator Inhofe. Roger Kindler, in those proceedings, and 
this is a State court proceeding, a district court, he said, 
Mr. Kindler stated that between 2011 and 2013, donations from 
within Oklahoma totaled $1,714,000. Of that total, only 
$110,288 in grants came to Oklahoma organizations. Is he a 
liar?
    Mr. Pacelle. Let me clarify. First, we did no fundraising 
on the Moore, Oklahoma tornado disaster.
    Senator Inhofe. No, I said it was around that timeframe.
    Mr. Pacelle. Senator Inhofe, we do continuous promotional 
work and programmatic work. So we don't simply give grants to 
other organizations. Foundations are grant-making groups. Non-
profit charities like The Humane Society of the United States 
conduct a wide range of programs. And our work is to protect 
all animals. So it is raiding dogfights, cockfights, supporting 
shelters. For instance, later this month, we have our annual 
Care Expo where shelter leaders throughout the Country come to 
get training. We do work on helping elephants, rhinos, turtles, 
which I know you are such a devotee of so many marine species 
of turtles. We run an animal rescue team. We go to Indian 
reservations.
    Senator Inhofe. OK, you do a variety of things.
    Mr. Pacelle. The fact that a percentage of our money, which 
is, I think a great feature of our program, that we give grants 
to shelters, that is a sliver of the incredible work that we do 
to save millions and billions of animals in Oklahoma, in the 
United States and throughout the world.
    So Scott Pruitt has not filed a lawsuit against The Humane 
Society of the United States. He has been driven by the Farm 
Bureau to make inquiries. I am sure that when he looks at our 
fundraising materials, he will see that.
    Senator Inhofe. But the figures that I used in terms of 
amounts of money coming back to organizations within my State 
of Oklahoma are accurate. Some 4 percent.
    Mr. Pacelle. We are not a grant-making group, Senator 
Inhofe. The American Farm Bureau Federation doesn't just give 
grants to farmers. The American Farm Bureau Federation 
advocates for the interests of farmers. The congressional 
Sportsmen's Caucus, the NRA does not just support shooting 
ranges.
    Senator Inhofe. I understand. My time has expired. The only 
question I would ask you to respond to is, will you agree to 
give to Scott Pruitt all the information that he has asked?
    Mr. Pacelle. We have given General Pruitt all the 
information about fundraising materials. We are entirely 
confident that he will see that we do exactly what we say we 
do. He wanted materials that were entirely unrelated to our 
issues. Then we sought to enjoin him and won in a State court 
on that issue.
    He can have any materials. We are very transparent.
    Mr. Sullivan. Mr. Pacelle, can you answer the question?
    Mr. Pacelle. We gave him what he wanted and then for 
additional materials that he sought that were beyond the scope 
of what he said, he was denied by a court that information.
    Senator Sullivan. OK, so I am still not sure that is 
responsive to Senator Inhofe's question.
    Mr. Pacelle. He asked if we would give the material to 
General Pruitt. And I said, yes, we gave him everything that 
was relevant and we didn't give him the stuff that was a 
fishing expedition.
    Senator Sullivan. OK.
    Senator Inhofe. That is answered. Thank you.
    Senator Sullivan. Senator Booker?
    Senator Booker. Thank you, Mr. Chairman. I truly appreciate 
your calling this hearing.
    Let me start out really quickly by complimenting my 
colleagues, Senators Heinreich and Murkowski, for coming 
together across the aisle. Lord knows we need more bipartisan 
work in the Senate.
    Unfortunately, both the portion of this legislation that we 
are considering today and the larger Sportsmen's Bill contain 
multiple provisions which need to be modified or eliminated 
before I could support this bill.
    Outdoor recreational activities play an important part in 
our economy. It is estimated that hunting, angling and 
recreational shooting and trapping generate about $90 billion 
of annual spending and Americans spend another $550 billion on 
other outdoor recreational activities. The vast majority, as 
many as 90 percent or more of the recreational users of our 
Federal lands, use those lands for activities such as hiking, 
horseback riding, backpacking, camping, nature study and 
climbing. That is 90 percent of the use of our Federal lands.
    We need to make sure that Congress is balancing the needs 
of all of our users of Federal lands, and that we are not 
passing legislation that would put some of our most vulnerable 
visitors to Federal lands, including our children, at serious, 
serious risk of harm.
    As drafted, the Sportsmen's bill would prohibit the EPA 
from ever, ever regulating or even assessing the actual science 
of the human risk posed by lead bullets and lead shot. This is 
what we know about lead. Lead exposure is toxic to humans. The 
effects of lead poisoning can include kidney disease, damage to 
the central nervous system, nerve disorders and memory and 
concentrating problems. In large enough doses, lead can even 
cause brain damage, leading to seizures, coma and actually 
death.
    Lead is especially dangerous for our young children. 
Childhood lead poisoning is even more pronounced because the 
lead is absorbed faster, causing slow growth, developmental 
defects, damage to the brain and nervous system and more.
    I saw this in Newark first-hand, the devastating and 
challenging detrimental impacts of lead poisoning on our kids. 
It is a crisis. The toxicity of that crisis, of that entrance 
into the system, has already been reduced or eliminated in 
gasoline, plumbing, paint, pesticides, toys and other products. 
We seem to have got it in every other area of our society. But 
somehow, we are afraid to confront the realities of lead 
buckshot.
    Every year, thousands of tons of lead are put into the 
environment from this lead ammunition, especially near shooting 
ranges and heavily hunted sites. Let me repeat. Every year, 
thousands of tons of lead are put into our environment from 
lead ammunition. This lead is not only poisonous to our 
wildlife, it is estimated that as many as 20 million birds and 
other animals each year die from lead poisoning. Twenty million 
birds and animals.
    But it also gets into our land, our waters, and it gets 
into our food supply. In addition, a Seattle Times 
investigation last year found that lead poisoning is a major 
health threat at America's shooting ranges. Mr. Chairman, I 
would like to ask that the Seattle Times investigation be 
entered into the record. Reading it is sickening. And the 
reality is, we know that there is lead poisoning going on. We 
know that these are threats to our environment.
    Mr. Pacelle, given all that we know about the toxicity and 
dangers of lead, is there any reason that you are aware for why 
Congress should permanently, forever, ban the EPA from even 
assessing the risks posed to human health, almost as if we are 
afraid of science and knowing the truth? Is there any reason or 
justification for this whatsoever, Wayne?
    Mr. Pacelle. I believe the Fish and Wildlife Service made 
the right call in 1991 when President George Bush was 
President, a Republican and a hunter, looking at the evidence, 
seeing that so many migratory birds and other animals were 
dying as a consequence of lead. The NRA and a number of other 
groups opposed that effort then.
    Now I do think that the Interior Department is the most 
appropriate agency to look at this issue. That said, if there 
is tremendously compelling science and if EPA has toxicologists 
and others who have something to contribute, Senator Booker, I 
don't see the compelling rationale for the Congress to preclude 
EPA from making an examination.
    I don't think that is happening now. I don't think EPA is 
chomping at the bit to do this. I think the debate is better 
placed in the States and within the Interior Department. But I 
don't understand this overreaction in terms of including this 
provision in this bill, when the EPA is not contemplating the 
issue right now.
    Senator Booker. Right. But to prevent it from studying the 
issue, even knowing it in the future, as tons and tons of lead 
are introduced into our natural environment, consumed by 
animals, poisoning our children, to not even be able to study 
it seems to me ridiculous.
    Mr. Pacelle. We would like to enter into the record a 
letter from 168 organizations, local, State and national, 
opposing that provision and others in this bill. There are 130 
different species of wildlife that have been documented in the 
scientific literature that are poisoned as a consequence of 
lead ammunition being left in the environment.
    And we understand the tradition of hunting in this Country. 
The fact is now, we have alternatives. We have non-toxic shot. 
We have other metals that are now much more competitive on 
price. So we are not talking about doing something that is 
going to entirely disrupt hunting. There was just a study from 
the Texas Parks and Wildlife Department about performance of 
lead versus other forms of shot with dove hunting. And the 
hunters couldn't tell the difference. It was basically a blind 
test.
    Senator Booker. So there are alternatives that are less 
expensive. They do better in some cases for our hunters. But 
yet we seem to be afraid of doing what is just reasonable, 
studying the toxicity of this.
    My time is expired. Hopefully we will get another round, 
Wayne, because I am not done with you yet.
    Senator Sullivan. Senator Crapo.
    Senator Crapo. Thank you, Mr. Chairman. I appreciate your 
holding this important hearing on this Bipartisan Sportsmen's 
package that is within the EPW jurisdiction. Legislation I 
introduced to protect Americans' Second Amendment rights on 
lands managed by the U.S. Army Corps of Engineers is thankfully 
included in this important package.
    According to the data compiled by the congressional 
Research Service, the Corps is responsible for $12 million 
acres of land and water, including 422 lake and river projects 
within recreation, 92,844 campsites, 7,700 miles of trails and 
3,544 boat launches. While some Corps lands and waters are open 
for hunting, there are a small number of authorized shooting 
ranges. Much of the land managed by the Corps is off limits to 
lawful possession of firearms.
    I wish Senator Whitehouse was still here, because he raised 
a concern about the fact that this would allow people to own 
and carry firearms at dams and other hydro facilities, where he 
thought there would be a concern. This legislation only allows 
that the possession of firearms in those places that are open 
to the public and specifically exempts the Federal facilities 
that I think Senator Whitehouse was talking about.
    The fact here is that it is a clear Second Amendment right 
that Americans should be allowed to exercise. Not only is this 
restriction a clear violation o the intent of the Second 
Amendment, but it is also inconsistent with the laws and 
regulations governing land that other Federal regulatory 
agencies implement.
    Enabling Americans to carry firearms on land managed by the 
Corps will allow law-abiding citizens to protect themselves and 
to engage in the kinds of recreation we have already discussed 
here on lands and facilities designed for that. This change 
will also provide needed consistency across Federal lands that 
will reduce the complication of tracking where one Federal 
agency's management jurisdiction ends and another begins.
    The Supreme Court in the District of Columbia v. Heller 
affirmed that the Second Amendment is an individual right and 
the right to an operable firearm for self-defense is one that 
Americans have. This right should apply on all lands managed by 
the Federal Government.
    Moreover, a Federal district judge in my home State of 
Idaho agrees. In the case of Morris v. U.S. Army Corps of 
Engineers, brought by plaintiffs in Western Idaho who used 
Corps-managed land for recreation, including camping, the 
plaintiffs challenged the regulation as being unconstitutional 
and in violation of their Second Amendment rights. In October 
of last year, the Court found that the regulation was in fact 
unconstitutional and banned the Corps policy, unfortunately, 
only in Idaho.
    Burdening law-abiding citizens of this Country with the 
additional Second Amendment restrictions that this Corps is now 
implementing is not the answer to safeguarding the public. 
Americans' Second Amendment rights must be restored to lands 
managed by the Corps. My legislation included in this package 
does just that.
    Now, Mr. Chairman, I do have a couple of questions and I 
hope I can get quickly through them. Mr. Crane, do onerous and 
confusing firearms regulations for public lands discourage 
sportsmen and their families from utilizing the land?
    Mr. Crane. Yes, sir. Do you want me to expound on that?
    Senator Crapo. Briefly. I am trying to be brief.
    Mr. Crane. Yes, sir. And as you pointed out, in 2009, the 
National Park Service and the Wildlife Refuge System, there was 
legislation that was bipartisan that was passed that allowed 
carry on those.
    The Army Corps lands are the last remaining lands. I think 
this is just consistent with making it easier and folks to 
understand where the lines are, as you pointed out. So, yes.
    Senator Crapo. Thank you. Mr. Hall, I would like to 
followup with you. Are your members unnecessarily burdened by 
the Corps' conflicting and confusing outright ban on firearms?
    Mr. Hall. Our members are as concerned as Jeff's are on 
what is legal and what is not. When you have the Federal 
Government, have different arms of the Federal Government have 
different rules dealing with Federal Government land, our 
citizens are never clear on what is allowed and not allowed.
    I was the Director of the Fish and Wildlife Service when 
the Park Service issue came up. Although it wasn't mine, I 
worked with them on getting the legislation passed that you 
passed here that said that following State law is the proper 
thing to do.
    I think any time that there are different rules on 
different public lands that are basically confusing to the 
public that it needs to be clarified.
    Senator Crapo. Thank you, Mr. Hall. I was involved in 2009 
when we had the congressional fight to make this change in the 
law. At that time, all of the dire concerns and consequences 
were raised by those who object. Frankly, by those who don't 
like the see the Second Amendment family and fully implemented, 
in my opinion. And we haven't seen that kind of problem.
    Another question for you, Mr. Hall. According to the Corps' 
own data, seven of the top ten migratory bird flyways in the 
United States cross over Corps-managed water. From a waterfowl 
hunting perspective, would you support a consistent approach to 
firearms possession across all Corps-managed land?
    Mr. Hall. Absolutely. Our members and those that pay the 
bill and help to get out there a drink just a little bit of the 
fruit of the vine that they helped grow the vineyard for 
deserve the right to understand and be able to use those 
waters.
    Senator Crapo. I only have about 30 seconds left, but I 
understand that it is possible you may have an example of the 
kinds of things we are talking about, where a boat ramp might 
prohibit the possession of firearms, where a person is trying 
to put a boat in to go out to another place where firearm 
possession is allowed. Those kinds of restrictions are 
complicating the ability of Americans to freely utilize their 
Second Amendment rights in pursuit of hunting or other 
purposes.
    Mr. Hall. I know we have some of those. But I want to be 
cautious and be accurate. If you would allow me, I will answer 
that question for the record after this is over with specific 
examples.
    Senator Crapo. I would appreciate that. Thank you very 
much, Mr. Hall. I see my time is up, and thank you, Mr. 
Chairman.
    Senator Sullivan. Senator Cardin.
    Senator Cardin. Mr. Chairman, thank you very much. Thank 
you for chairing this hearing, it is very important.
    I want to followup on Senator Crapo's point first. It is 
good to have a bipartisan bill. I have some concerns about some 
of the provisions, but I do appreciate the manner in which this 
bill has been put together. It is a real effort to try to get 
legislation to the finish line. We started this in the last 
Congress and we made progress. Many of these provisions have 
been worked on by both Democrats and Republicans, so I very 
much appreciate that.
    There will be interest to see whether there are other areas 
that may not be in the original bill that we hope will get 
incorporated. Because quite frankly, we don't get too many 
bills to the finish line. I think we have a good chance to get 
this bill to the finish line.
    So I want to followup on Senator Crapo's point, because the 
two of us have worked together on a bill dealing with the 
national fish habitat conservation, a non-controversial bill 
that we would hope will be able to be included in the package. 
It allows for the partnership between State and local 
governments and the private organizations in order to deal with 
fish habitat issues, which are, we believe, the sensible way to 
go about doing this.
    Mr. Crane, your organization has been part of these efforts 
dealing with fish habitat. I would like to get your assessment 
as to the importance of encouraging partnerships to deal with 
the fish habitat, specifically the bill that senator Crapo and 
I have been working on.
    Mr. Crane. Thank you, Senator, and thank you for your 
leadership along with Senator Crapo on this important 
legislation. We are supportive of it and we recognize the value 
of these partnership not unlike the North American Wetlands 
Conservation Act. As you pointed out, they leverage private 
funds. They go across States and effectively look at the 
conservation goals as a whole. We would be very supportive of 
working with you and if we can figure out a way that this 
enhances the bill and the chances for it to get those much-
needed 60 votes, we would like to work with you.
    Senator Cardin. Yes. Of course, our objective is to look at 
areas that do not cause additional concerns on the support. We 
think this is one of the categories. As you point out, what it 
basically does is leverage private sector involvement to 
protect our fish habitats, which is in everyone's interest. 
Some of the modifications that Senator Crapo and I made in the 
version this year deal with some of the technical concerns 
raised in the last Congress. We think we have hit the sweet 
spot. We look forward to talking to the committee about that.
    I want to mention one other area that this committee has 
acted on in previous Congresses, basically without controversy, 
and that is neo-tropical bird issues, which deal with the fact 
that many of our bird species in this Country migrate as far 
away as down in South America. This is a bill that allows us to 
participate and protects the habitats of birds that we very 
much want to see in our community.
    Again, I don't believe this is a controversial issue. It 
has been basically without opposition in this committee in the 
past. I hope that we will have a chance, Mr. Chairman, as we 
talk about putting together a bill, looking at those issues 
that truly are not controversial but give us a chance to make 
significant progress to protect habitats for beauty, for the 
economics, for the sportsmen and for all of us to enjoy for 
future generations.
    I yield back my time.
    Senator Sullivan. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman, and thank all of 
you for being here. We really do appreciate your testimony.
    Mr. Hall, the bill contains a provision that the Arkansas 
delegation has worked on, been very active in writing and 
promoting. The provision helps clarify that farmers are allowed 
to engage in normal agricultural practices that have added the 
benefit of providing habitat for ducks. We have seen a lot of 
misinformation surrounding the important element of the bill.
    In your testimony you stated that conservationists have 
established population-based waterfowl habitat goals that 
depend on the presence of rice agriculture on landscape. The 
growth of a second crop of rice is normal agricultural 
practice. I guess the question is, really a couple of things, 
does this normal agricultural practice enhance winter waterfowl 
foraging habitat? And second, would you say that the bill 
provides a win-win for both farmers and for migratory game 
birds in that regard?
    Mr. Hall. The answer, simple answer is absolutely. What we 
need to recognize first, and if I may say so as part of the 
record, with the loss of wetlands that we have had here in the 
United States, when the wintering habitat comes into question, 
rice has become a surrogate wetland in order to support those 
waterfowl populations.
    We are at the highest level of nest productivity and 
nesting waterfowl since we have been taking records in 1955. 
Yet we have lost so much of the native habitat. The reason we 
have been able to do that is we have taken advantage of our 
partnership with agriculture, whether it is winter wheat in the 
north for nesting, or whether it is rice in the south and west 
for wintering habitat. In your particular question dealing with 
the Gulf Coast joint venture, they have actually put 41 percent 
of the food requirements to be coming from rice. This second 
ratoon crop is critical.
    The rules, as they are stated now, and it is not ever where 
the ratoon crop comes in, where they grow rice, but in the 
south it happens that the second one naturally comes in after 
the harvest. Well, the rules of harvest kick in because you 
have manipulated the ground. So by causing the farmer to choose 
between taking care of waterfowl and making additional money on 
being able to lease out hunting facilities, and we are strong 
supporters of that, because that brings additional economic 
value and support for waterfowl management and conservation. To 
make them choose, we believe, is an absolutely unnecessary 
question. It is not about the abandonment of fair chase. It is 
about managing the resources with the regional conservation 
agricultural practices that are normal. And they do vary from 
region to region. Therefore, we support this provision.
    Senator Boozman. Good. Thank you very much, Mr. Hall.
    I would like to yield a minute to Senator Inhofe, if that 
is OK.
    Senator Sullivan. Without objection.
    Senator Inhofe. Thirty seconds of your time. I want to get 
to Senator Fischer, because our votes have started.
    But for clarification purposes, Mr. Pacelle, when I asked 
the question about the very effective ad you had, implying that 
is going to animal shelters and other places, and that you have 
raised from my citizens in Oklahoma over $1.7 million, and the 
total amount that has come back for organizations within 
Oklahoma from you was $110,000, and you said no, that wasn't 
true, and I read you the following statement, your general 
counsel said that between 2011 and 2013, donations from within 
Oklahoma totaled some $1.7 million. Of that total, only about 
$110,000 in grants to Oklahoma came to Oklahoma organizations.
    Now, is that statement correct?
    Mr. Pacelle. The statement is correct.
    Senator Inhofe. Mr. Chairman, I only want a yes or no, 
because we have votes.
    Mr. Pacelle. Those ads say that we are not giving the money 
to animal shelters. The presumption that somehow the ads say we 
are giving money to shelters is a false presumption.
    Senator Inhofe. They are very effective ads to get $1.7 
million out of Oklahoma.
    Mr. Pacelle. There is language that says it is not going to 
local animal shelters. Explicit language. We do all animals. 
And we do it outside of shelters and inside of shelters.
    Senator Sullivan. Mr. Pacelle, do you want to take the 
opportunity to answer that yes or no?
    Mr. Pacelle. It doesn't lend itself readily to a yes or no 
answer. The answer is $110,000, if that is what Roger Kindler 
said in terms of grants to societies in Oklahoma, I am sure 
that is true. We do so much more outside of the shelters in 
Oklahoma to help animals.
    Senator Sullivan. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    I am proud to be a vice chair of the congressional 
Sportsmen's Caucus. And I am very happy to be a co-sponsor of 
the Bipartisan Sportsmen's Act.
    A priority that I would like to work on as we consider this 
legislation is addressing duplicative permitting of pesticides 
under FIFRA and the Clean Water Act. This duplicative process 
creates unnecessary resource burdens and challenges for 
pesticide registrants and users, including the sportsmen 
community.
    Pesticides are actually critical for outdoor recreation, 
enabling healthy habitats and ecosystems to thrive, while 
suppressing vector-borne diseases such as the West Nile virus, 
which threaten outdoor activity of all kinds. Eliminating 
harmful and invasive pests is critical to vegetation and 
management. The U.S. State agencies have testified that these 
FIFRA permitting requirements offer no additional environmental 
benefits.
    While the House acted on legislation to address this 
problem in both the 112th and 113th Congress, and is already 
taking action, this year the Senate has yet to address this 
issue. It is time for this committee and the U.S. Senate to 
act. So I look forward to working with my colleagues on 
exploring opportunities to accomplish this goal as we move 
forward to debate this bill.
    Mr. Crane, I am very grateful for the work of the 
Sportsmen's Caucus in developing this important legislation. 
Thank you very much. It has been a pleasure to be involved with 
the Caucus.
    For the benefit of everyone here, can you please talk about 
the work that went into putting together this bill, both the 
bipartisan cooperation in the Caucus and the Senate, and also 
the collaboration that we have seen from all of the 
organizations and partners that are out there in the 
sportsmen's community?
    Mr. Crane. Yes, Senator. Thank you for your leadership on 
this.
    This process started probably more than 6 years ago. 
Senator Tester from Montana was the Democratic co-chair of the 
Caucus. We attempted to assemble in the Senate for the first 
time a comprehensive Sportsmen's Act. In successive Congresses, 
it has gotten closer to passage. SO I hope this is going to be 
the year.
    The House has passed similar legislation on a bipartisan 
basis in the last two Congresses. So again, I hope this is 
going to be our year. I did in my opening statement hold forth 
a letter from all the leading sportsmen, hunting, fishing, 
conservation groups, endorsing the parent bill, S. 405. Again, 
thank you for your leadership on that.
    Senator Fischer. Thank you, sir. I can tell you, with 
really the great bipartisan support we have, this should be the 
year that this passes.
    In your testimony you discuss the modifications of 
definition of sport fishing equipment under the Toxic 
Substances Control Act. Can you please go into further detail 
on the potential implications? We see there are anti-hunting 
and fishing citizen suits that force EPA to expand that TSCA 
authority to regulations of our ammunition and our tackle as 
well.
    Mr. Crane. Yes, Senator, and if you will permit me about 15 
seconds, I would like to point out, there is a difference 
between elemental lead, which is on the periodic table. Lead is 
an inert substance that is found in the earth in molecular 
lead, which is what is transformed and used in paints and 
gasoline and things like that. The molecular lead is highly 
toxic. That was a statement that I would just like to put for 
the record.
    But the definition of fishing tackle under the IRS code 
basically would involve every single piece, from a fishing rod 
to a fishing reel to all the terminal tackle. It would 
basically, if they were successful in being able to push back 
and put restrictions on lead, you would be going back to the 
days of Tom Sawyer with a cane pole and a piece of monofilament 
line. The attendant moneys that are raised through the Wallop-
Breaux excise taxes on fishing equipment, it would be 
devastating to the conservation and economy of the United 
States.
    Senator Fischer. So it would have really a very harmful 
impact, not just on the recreation industry but on our 
conservation practices as well?
    Mr. Crane. This is where the lion's share of the money 
comes from.
    Senator Fisher. Thank you. Mr. Crane and Mr. Hall, you have 
heard Mr. Pacelle try to defend HSUS's positions here this 
morning. I would like to give you an opportunity to respond to 
any of those statements, detailing, I think, his organization's 
stance on hunting and what impact his organization has on the 
sportsmen's community.
    Mr. Crane. I will be happy to do that. I would like to 
focus on the polar bear, but in my opinion and being around in 
this industry, I am not so sure I take at face value that The 
Human Society of the United States does not oppose hunting. But 
I think that is a debate maybe for another time.
    In his testimony on the polar bear, he pointed out that 
when the Service was proposing the listing that people rushed 
up there to shoot these bears. First of all, you have to book 
these hunts well in advance. There is a significant deposit 
that is required for these animals. So the idea that somebody 
rushed up there is erroneous.
    Second, usually, and I will defer to the former Director of 
the Service, but usually there is a minimum of a 30-day period 
after a listing occurs to allow people to bring them back in. A 
judge in California ordered that this would have immediate 
effect. And it caught these people in a catch-22 position up 
there. They were victims of something that they don't deserve. 
This is just seeking justice for those people.
    Senator Fischer. Mr. Hall, do you have any comments?
    Mr. Hall. I would simply echo that I agree with Mr. Crane. 
It is not my experience that HSUS runs out and supports 
hunting. They may not oppose it, and I am not going to question 
that; he is going to give his own testimony. But at the same 
time, we are concerned often with tactics that we think are 
less than above-board on trying to portray hunting as something 
of a blood sport and not giving the proper credit back to the 
people that actually pay for those animals to be there.
    Senator Fischer. Thank you. Thank you, Mr. Chairman.
    Senator Sullivan. Thank you.
    We are going to move into a second round of questioning, 
but we have a vote pending here, so we are going to limit that 
to 2 minutes each.
    I will begin. Mr. Pacelle, I didn't have a chance to ask 
you any questions, so I am going to ask one. There was a lot of 
discussion on lead and its impacts. But importantly, there are 
20 million hunters in the U.S. whose families eat game, rely on 
game, harvest it with traditional ammunition. Can you tell us 
the percentage of the 20 million families who have gotten lead 
or get poisoning as a direct result of eating game meat?
    Mr. Pacelle. Mr. Chairman, according to the fish and 
Wildlife Service, there are about 13 million hunters. I am not 
sure how many hunting families that translates into. We are not 
contesting the tradition of hunting. If someone is killing a 
deer and eating a deer, that is arguably a better outcome for 
the animal that if someone gets meat from a factory farm.
    So we have on our national council a life-long hunter, 
Renee Tatro, from Kansas. It is not a debate for us about 
hunting.
    If you are talking about lead, there is abundant evidence 
that as lead ammunition fragments, it becomes undetectable for 
the consumer of the product. There is a study out of North 
Dakota, I would be happy to submit it, about high lead levels 
in game meat that has been consumed by North Dakota hunters. 
There have been a number of other food pantries and others that 
have raised concerns about this issue as well.
    Again, I understand the tradition of hunting. The issue is, 
if we have an alternative that is increasingly competitive on 
price and meets all the ballistic properties that lead has, and 
is indistinguishable, according to this latest survey from dove 
hunters in Texas, why would we not make a switch if we can do 
something that is not going to kill as many animals and 
threaten as many hunting families in terms of consumption? 
Again, if we can shift to that.
    The world changes all the time. We went from the typewriter 
to the personal computer. The world is going to move away from 
lead. The question is, are we going to do it in a rational, 
science-based way? That is what we want. I am not sure it is 
rational to say, EPA should never be allowed to look at the 
issue.
    Senator Sullivan. Thank you.
    Senator Booker.
    Senator Booker. Mr. Pacelle, this is a speed round, so I am 
going to ask you one question and ask that you submit that for 
the record, then I am going to give you a question to take for 
my 60 seconds left.
    I have a serious concern about trapping. It is something 
that I know other countries have banned specific types of 
traps, because of their inhumane nature, body-gripping traps, 
specifically, and accidents that happen with body-gripping 
traps, the unintended consequences of body-gripping traps. So I 
would appreciate it if you could submit to the record some of 
your testimony on that. I think it would be objectionable to 
the overwhelming majority of Americans if they knew more of the 
truth of what those traps do and how this legislation would 
open up nearly all Federal lands to such a barbaric practice 
that has some pretty negative consequences that are unintended.
    But a specific question I want to ask you, because I saw 
the sort of grilling that you were taking from my honorable 
colleague and a partner of mine on many efforts, I know you are 
a non-profit. In the world of non-profits, where some of them 
are involved in some skeptical practices, yours is actually 
pretty amazing in terms of the return it gives to the donors, 
whether it is Oklahoma or New Jersey. I know you get lots of 
donations from New Jersey.
    So for the record, to give you the last 30 seconds I have, 
would you expound a little bit about donors in Oklahoma and New 
Jersey and what they are getting for the money they are 
investing?
    Mr. Pacelle. Thank you, Senator Booker. Briefly on that 
issue, The Humane Society of the United States is about 
protecting all animals. We are the No. 1 direct care provider 
to animals in the United States in terms of the number of 
animals that we directly touch. We are the largest wildlife 
rehab center in the U.S. Again, we see the toxic effects of 
lead on some of those animals who come into our facility as a 
consequence of lead poisoning.
    We have equine sanctuaries. We have an animal rescue team. 
We help tens of thousands of street dogs throughout the world, 
which is a public health issue as well, because of rabies-
related concerns.
    We do advocacy work for horses, for farm animals, for 
animals in laboratories, for wildlife. And for anyone to say 
that The Humane Society of the United States should just give 
money to shelters as a grant-making exercise so narrow the 
mission and focus of our work, and it is never anything that we 
ever said.
    Senator Booker. The Chairman is my friend and I don't want 
to tread upon his patience.
    Mr. Pacelle. Thank you for asking. I appreciate the 
opportunity to clarify.
    Senator Sullivan. Thank you, gentlemen. Thank you for your 
testimony. All the materials requested to be entered into the 
record are hereby done so without objection.
    [The referenced materials follow:]
    
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
   
    
    Senator Sullivan. The subcommittee hearing on the 
Bipartisan Sportsmen's Act of 2015 is hereby adjourned. Thank 
you again.
    [Whereupon, at 11:19 a.m., the hearing was adjourned.]
    [Additional material submitted for the record follows.]

            Statement of David Sollman, Executive Director, 
                    Fur Industries of North America

    On behalf of the Fur Industries of North America, an 
organization that represents wildlife trappers throughout the 
country, we appreciate the opportunity to provide information 
to the Committee on the current State of trap technology and 
ongoing research programs. While trapping is not a direct 
subject of the Bipartisan Sportsmen's Act, we recognize that 
trapping is an important component of wildlife management and 
that issues related to trapping have been raised during debate 
on this important legislation. We, therefore, offer the 
following information on the current status of trap technology 
research, best management practices and our international 
obligations under agreements on humane trapping.
    In 1997, the United States and the European Union signed an 
Agreed Minute on humane standards for trapping of furbearing 
animals. The Agreed Minute represents a binding international 
treaty commitment of the United States. Concurrently, an 
agreement was reached between Canada, Russia and the EU. The 
Agreement on International Humane Trap Standards (AIHTS) seeks 
to develop humane methods for the capturing of furbearing 
animals. The Agreed Minute reflects the U.S. commitment to the 
principles of the AIHTS.
    As a result, the United States is committed to ongoing 
programs designed to meet U.S. obligations by testing trapping 
devices that measure humaneness, safety, selectivity, 
practicality and efficiency that are incorporated in the 
Agreement. Accordingly, the program was designed, with Federal 
oversight, to allow State control of the research. While as a 
constitutional matter, trapping is regulated by the states, 
this is more than an issue of State vs. Federal control over 
trapping. States have the right to regulate their respective 
wildlife populations. Also, State control is more practical 
because of: (1) the competency of the states residing with 
their respective DNRs; and (2) the great diversity of habitats 
across the country, which require state-specific solutions to 
issues of wildlife management.
    To date, research has been completed and best management 
practice recommendations have been distributed on traps for 21 
species with two more soon to be released. Over 100 trap types 
have been tested and a substantial number of devices have been 
identified that meet international animal welfare standards. 
Those traps that fail to meet international standards have also 
been identified. These findings have been published and 
distributed by the states to wildlife managers, users and 
available to the general public. Future efforts will increase 
State level education, outreach, and training to ensure that 
best management practices are integrated into professional and 
agency programs.
    The Agreed Minute specifically obligates the U.S. 
Government to fund an annual research program to improve the 
quality of traps and to ensure new traps meet welfare criteria 
set forth in the Agreement. The United States research program, 
undertaken by the USDA National Wildlife Research Center, has 
been developed in partnership with the State Fish and Wildlife 
Agencies, which have regulatory authority over trapping. 
Failure to maintain this commitment could result in reduced 
access to European and other markets for American fur products. 
For this reason, the USDA and the States have maintained their 
commitment to continued research and development in this 
important area.
    We appreciate the opportunity to provide this information 
to the Committee as it considers issues that relate to wildlife 
management.
                                ------                                

    March 24, 2015
    Re: Please oppose S. 405, the so-called ``Bipartisan 
Sportsmen's Act of 2015''

    Dear Senator:
    On behalf of our more than 100 national, regional, and 
local organizations and our millions of members, we write to 
express our strong opposition to S. 405, the so-called 
``Bipartisan Sportsmen's Act of 2015'' and its related Senate 
bills (S. 556, S. 659). We oppose this legislation because it 
threatens the conservation of fish, wildlife, and habitats that 
benefit all Americans. While there are many adverse special 
interest provisions contained in this legislation, the 
following aspects of the bill clearly demonstrate the harm it 
will do and why it must be opposed.

                  Rollback of Public Lands Protection

    S. 405 contains several alarming rollbacks of long-standing 
Federal environmental and public land laws, including the 
National Environmental Policy Act (NEPA), the Wilderness Act, 
and the National Forest Management Act. These rollbacks would 
reduce or eliminate important protections for America's public 
lands that have been in place for decades.
    In regards to NEPA, for example, the bill exempts all 
decisions on Bureau of Land Management (BLM) and United States 
Forest Service (USFS) lands regarding trapping and recreational 
hunting, fishing, and shooting from compliance with NEPA by 
mandating that these lands be open to these activities. NEPA 
ensures that agencies assess and consider the impacts of their 
land-use decisions before those decisions are put into action. 
It also serves as an effective platform for the public to 
assess the environmental consequences of proposed agency 
actions and to weigh in on governmental decisions before they 
are finalized.
    Underlying changes to the Wilderness Act embedded in S. 405 
seek to overturn decades of congressional protection for 
wilderness areas. For example, the bill would require lands 
managed by the USFS and BLM, including wilderness areas, to be 
managed as ``open unless closed'' to recreational shooting. 
This includes ``sport, training, competition, or pastime 
whether formal or informal'' in designated wilderness. 
Wilderness areas have always been closed to competitive events 
and commercial enterprises by statute and regulation.
    Moreover, the bill prioritizes hunting, trapping, 
recreational fishing, and recreational shooting in most 
Wilderness areas by requiring that all Federal land managers 
(except for lands managed by the National Park Service or the 
United States Fish & Wildlife Service) facilitate the use of 
and access to lands under their control for these activities. 
The agencies could interpret prioritizing hunting, trapping, 
fishing, and recreational shooting in wilderness areas to mean 
that they can permit management measures such as the use of 
motorized vehicles in these areas to artificially increase game 
or fish numbers. Such measures would be inconsistent with the 
concept of wilderness and the Wilderness Act.
    Further, section 106 of S. 405 would significantly change 
current practices and open up all wilderness areas across the 
country to commercial filming activities and their attendant 
problems, preventing Federal land managers from protecting 
designated wildernesses from commercial filming production. The 
language in this section that exempts ``cameras or related 
equipment used for the purpose of commercial filming or similar 
projects'' from the prohibitions on motorized and mechanized 
equipment in designated wilderness could lead to calls to allow 
motorized access in wilderness areas for commercial filming. 
Congress recognized that wilderness areas can easily be damaged 
by commercialization. The Wilderness Act's section 4(c) 
provides that, except as specifically provided otherwise, 
``there shall be no commercial enterprise . . . within any 
wilderness area.'' We are deeply concerned that making 
exceptions for commercial filming would lead to opening 
wilderness areas to even more commercial enterprises.
    Such changes are in direct conflict with the stated purpose 
of the Wilderness Act to establish areas ``where the earth and 
its community of life are untrammeled by man, where man himself 
is a visitor who does not remain.'' It is also in direct 
opposition to the Act's fundamental mandate that Federal 
agencies preserve the wilderness character of these lands so 
that they are left ``unimpaired for future use and enjoyment as 
wilderness.''
    The legislation promotes the priorities of various special 
interests by making substantive policy changes to public land 
law. It prioritizes recreational shooting activities by 
promoting and facilitating the establishment of target ranges 
on public lands. As defined, recreational shooting activities 
are unrelated to, and potentially at odds with, the unique 
natural resource values of the various Federal land management 
systems on which they would occur.
    Under the National Forest Management Act, forest managers 
manage for the resilience of our national forests so that both 
current and future generations can benefit from multiple uses 
of the land. In some cases, managers need the flexibility to 
stop certain actions to promote long-term use of the forest 
resources. Requiring that all Forest Service lands be ``open 
unless closed'' to hunting, trapping, fishing, and shooting is 
one example of many where this legislation undercuts their 
ability to do that.
    Appropriate management of our public lands plays a critical 
role in stewardship for biodiversity as well as for 
recreational opportunities. The natural resource management 
laws affected by this legislation were created to ensure public 
lands were managed to protect biodiversity. This stable 
habitat, in turn, allows for healthy wildlife populations, 
which can prevent them from needing to be listed under the 
Endangered Species Act. They work to ensure that our wildlife 
and public land resources thrive and that hunters, birders, and 
anglers alike can enjoy them for generations to come. By 
weakening these important laws, the proposed legislation would 
significantly undermine these important public land values.

                       Lead ammunition pollution

    Second, S. 405 would remove the Environmental Protection 
Agency's (EPA) authority to regulate toxic lead or any other 
toxic substance used in ammunition or fishing equipment under 
the Toxic Substances Control Act. A nationwide ban on lead shot 
in migratory waterfowl hunting was adopted in 1991 after 
biologists estimated roughly two million ducks died each year 
from ingesting spent lead pellets. The hunting industry groups 
that want to prevent the EPA from regulating lead ammunition 
and fishing tackle are the same groups that protested the ban 
on lead shot for waterfowl hunting in 1991. Despite the doom-
and-gloom rhetoric, hunters know two decades later that this 
didn't lead to the end of duck or goose hunting. A Federal 
agency should be able to carry out its duties without uncalled 
for and unscientific laws impeding this process. Such decisions 
should be left to the discretion of Federal agencies based 
solely on the best available science on the impacts of toxic 
substances such as lead. Congress should not tie the hands of 
professional scientists and prevent them from even evaluating 
or considering future policies to protect the public and the 
environment.
    Switching to non-lead hunting ammunition isn't about 
stopping hunting or taking anyone's guns away. In fact, some of 
the staunchest supporters of the effort to rid our public lands 
of lead are hunters. The switch to non-lead hunting ammunition 
in California, for example, proves that replacement of toxic 
lead in ammunition is compatible with hunting. Hunters have 
been hunting with copper rounds in 14 California counties since 
non-lead hunting ammunition requirements went into effect in 
2008 to protect endangered California condors from lead 
poisoning.

                          Polar bears in peril

    S. 405 would allow the import of 41 sport-hunted polar bear 
trophies from Canada. This would be the latest in a series of 
import allowances that Congress has approved, and the 
cumulative effect is devastating to our most imperiled species. 
Despite having notice of the impending prohibition on import of 
polar bear trophies from Canada for 16 months (between January 
2007 and May 2008), a number of trophy hunters went forward 
with their hunts anyway. In fact, the 41 individuals all hunted 
polar bears AFTER the Bush administration proposed the species 
for listing as threatened under the Endangered Species Act and 
all but one hunted more than a year after the listing was 
proposed. They were given repeated warnings from hunting 
organizations and government agencies that trophy imports would 
likely not be allowed as of the listing date, and that they 
were hunting at their own risk. If this behavior were rewarded 
through a congressional waiver, it could accelerate the pace of 
killing any species that is proposed for listing in the future, 
since hunters would believe they could get the trophies in even 
after a listing becomes final. Each new allowance may involve 
only a few animals, but the cumulative impacts of these waivers 
time and time again lead to more reckless trophy killing.

                               Conclusion

    This bill is extreme and reckless. It would undermine 
decades of land management and planning practices and would 
topple the delicate balance between allowing for public use and 
the need to protect public resources. In regards to increased 
public land access for recreational hunting and fishing, it is 
also unnecessary. Hunting and fishing are already permitted on 
85 percent of public lands. This bill's proponents seek to 
solve a problem that does not exist, and the legislation they 
propose could in fact cause serious damage to America's natural 
heritage.
    Please oppose S. 405, as well as any related legislation 
such as S. 556 and S. 659, and oppose any effort to attach any 
of these to another bill. This legislation is bad for public 
lands and water resources, bad for fish and wildlife, and bad 
for the American people.
    Thank you.

     The American Society for the Prevention of Cruelty to 
Animals  Adirondack Wildlife Refuge and Rehabilitation Center 
 Alliance for the Wild Rockies  Animal Legal Defense Fund  
Animal Protection League of New Jersey  Animal Welfare 
Institute  Animals Are Sentient Beings, Inc.  Audubon Society 
of Corvallis  Audubon Society of Kalamazoo  Blue Ridge 
Wildlife Center  Born Free USA  Cascades Raptor Center  
Center for Biological Diversity  Center for Food Safety  
Center for Public Environmental Oversight  Center for Wildlife 
Ethics, Inc.  Citizens for the Preservation of Wildlife, Inc. 
 Connecticut Council for Humane Education Conowingo Bald 
Eagles  Conservation Congress  Conservation Northwest  
Cornell Laboratory of Ornithology  Coyote Coexistence  Coyote 
Watch Canada  Earth Island Institute  Endangered Habitats 
League  Endangered Species Coalition Environmental Action 
Committee of West Marin  Environmental Protection Information 
Center  Footloose Montana  Four Harbors Audubon Society  
Freedom Center for Wildlife  Friends of Georgia  Friends of 
the Bitterroot  Friends of the Clearwater  GooseWatch NYC  
Great Old Broads for Wilderness  Gulf Restoration Network  
Hawk Mountain Sanctuary Headwater  Heartwood  The Humane 
Society of the United States  Humane Society Legislative Fund 
 The Humane Society Wildlife Land Trust  Humane Society 
Veterinary Medical Association  In Defense of Animals  
nternational Fund for Animal Welfare  The International 
Wildlife Rehabilitation Council Jayhawk Audubon Society  
Justice for Wolves  Kittitas Audubon Society  Klamath Forest 
Alliance  Laramie Audubon Society  League of Humane Voters, 
Alabama  League of Humane Voters, Florida  League of Humane 
Voters, Georgia  League of Humane Voters, Indiana  League of 
Humane Voters, Nevada  League of Humane Voters, New Jersey  
League of Humane Voters, New York  League of Humane Voters, 
Ohio  League of Humane Voters, Pennsylvania  League of Humane 
Voters, Virginia  Long Island Orchestrating for Nature  
LoonWatch  Los Padres ForestWatch  Madrone Audubon Society  
Maricopa Audubon Society  MOMS Advocating Sustainability  
National Urban Wildlife Coalition  New Hampshire Audubon  
North County Watch Northcoast Environmental Center  Northeast 
Oregon Ecosystems  Prairie Dog Pals  Predator Defense  
Preserve Our Wildlife  Project Coyote Rainforest Relief  
Raptor Education Group, Inc.  Raptors Are The Solution  
Raptor Rehabilitation of Kentucky Inc.  RESTORE: The North 
Woods  Rocky Mountain Wild  Save America's Forests  Save Our 
Sky Blue Waters  SAVE THE FROGS!  Sequoia ForestKeeper  
Speak Up for Wildlife Foundation  Sky Island Alliance  South 
Florida Wildlands Association  Southern Utah Wilderness 
Alliance  Tamarack Wildlife Rehabilitation Center  TEDX, The 
Endocrine Disruption Exchange  Tennessee Ornithological 
Society  Tri-City Ecology Center  Walden's Puddle Wildlife 
Rehabilitation and Education Center  Western Lands Project  
White Mountain Conservation League  Wild Wings Raptor 
Rehabilitation, Sisters, OR  WildEarth Guardians  Wilderness 
Watch  The Wildlands Network  Wildlife Rehabilitation Center 
of Northern Utah  WildWest Institute  Yellowstone to Uintas 
Connection  Zumbro Valley Audubon Society

                                 <all>
</pre></body></html>
